Report No. D-2011-084              July 15, 2011




      DFAS Needs More Effective Controls
      Over Managing DoD Contractor Debt
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
APO                           Accounts Payable Office
ARO                           Accounts Receivable Office
CAGE                          Commercial and Government Entity
CDS                           Contractor Debt System
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
TIN                           Taxpayer Identification Number
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON , VIRGINIA 22202-4704


                                                                              July 15, 2011

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE

SUBJ ECT: DFAS Needs More Effective Controls Over Managing DoD Contractor Debt
           (Report No . D-20 ll -084)

We are providing this report for review and comment. The Contractor Debt System is a
database used by the Defense Fina nce and Accounting Service to manage DoD contractor
debt. Defense Finance and Accounting Serv ice d id not have proper controls to record
and track DoD contractor debts. Specificall y, of 14 1 contractor debt transactions valued
at $124.7 million, the Defense Finance and Accounting Service d id not have Taxpayer
Identification N umbers a nd Commerc ia l and Government Entity codes for 46 debt
transactions, valued at $ 15.7 million, and d id not have documentation suppo rting the
appropriation, line of accounting, orig ina l principal, or delinque nt age attributes for
62 debt transactions, valued at $58.3 million. We considered management comments on
a draft of this report when preparing the final report.

DoD Directive 7650.3 re quires that recommendations be reso lved promptly. Some of the
comments received from the D irector, Standards and Compliance, Defense Fi nance and
Accounting Serv ice were only partially responsive. T herefore, we request that the
Director, Standards and Comp iiance provide add itiona l comments to Recommendations
I. a, l.b, and l.c.(l ) by August 15, 20 I I.

If possib le, send management comments in e lectronic format (Adobe Acrobat file only)
to audclev@dodi2:.mi l. Copies of management comments must have the actual signature
of the authorizing officia l for your organization. We cannot accept the I Signed I symbol
in p lace of the actual signat ure. If you arrange to send c lass ified comments
e lectronicall y, you must send them over the SECRET Internet Protocol Router Network
(S IPRNET).

We appreciate the courtesies extended to the staff. Please direct qu estions to me at
(703) 60 1-5868 (DSN 329-5868).



                                (JoJ~vv 0. /J1~
                                 Patricia A. Marsh, C PA
                               Assistant Inspector Genera l
                          Financial Management and Rep011ing
Report No. D-2011-084 (Project No. D2009-D000FN-0300.000)                        July 15, 2011

               Results in Brief: DFAS Needs More Effective
               Controls Over Managing DoD Contractor
               Debt

What We Did                                             What We Recommend
We determined whether the Defense Finance               We recommend that the Director, Standards &
and Accounting Service (DFAS) had controls              Compliance, DFAS, improve management
in place to ensure the completeness and                 controls over completeness and accuracy of
accuracy of data in the Contractor Debt System          data in CDS by:
(CDS). Specifically, we determined whether
DFAS properly recorded, offset, and tracked                •   revising procedures to require the
contractor debts and collections. We reviewed                  recording of a valid TIN and
141 contractor debt transactions valued at                     CAGE code,
$124.7 million in the CDS.
                                                           •   implementing controls over the CDS
What We Found                                                  TIN and CAGE code data fields, and
DFAS management did not effectively manage
                                                           •   requiring technicians to collect all
the completeness and accuracy of data in CDS.
                                                               supporting documentation.
For the 141 sample transactions we reviewed,
46 transactions, valued at $15.7 million, did not
                                                        We also recommend that the Deputy Director
have a Taxpayer Identification Number (TIN)
                                                        for Operations, DFAS, identify a valid TIN or
and a Commercial and Government
                                                        CAGE code for each debt transaction in CDS
Entity (CAGE) code and 62 transactions,
                                                        currently missing that information.
valued at $58.3 million, had insufficient
supporting documentation.
                                                        Management Comments and
DFAS personnel properly offset contractor               Our Response
debts when a valid TIN or CAGE code was
available. However, DFAS management did                 The Director, Standards and Compliance,
not have controls over recording contractor             DFAS provided comments for each
identification information and did not have             recommendation. Not all comments were fully
effective controls for tracking contractor debts.       responsive; therefore, we require additional
                                                        information. We request that the Director,
DFAS personnel did not properly record or               Standards and Compliance, DFAS, reconsider
track contractor debt because procedures and            his position and provide additional comments
system controls did not require a valid TIN and         by August 15, 2011. Please see the
CAGE code to be recorded in CDS. Accounts               recommendations table on the back of this
Receivable technicians also did not have                page.
evidence that they validated contractor debt
data collected and entered into CDS. As a
result, there is an increased risk that DFAS
Operations will not collect all of DoD
contractor debt.


                                                    i
Report No. D-2011-084 (Project No. D2009-D000FN-0300.000)            July 15, 2011

Recommendations Table

         Management                    Recommendations              No Additional
                                      Requiring Comment        Comments Required
Director, Standards &             1.a, 1.b, 1.c.(1)         1.c.(2)
Compliance, Defense Finance
and Accounting Service
Deputy Director for Operations,                             2
Defense Finance and Accounting
Service

Please provide comments by August 15, 2011.




                                           ii
Table of Contents

Introduction                                                     1

      Audit Objectives                                           1
      Background for DFAS Operations                             1
      Internal Controls for Contractor Debt Management           4

DFAS Needs to Comply With Contractor Debt Management
      Requirements                                               5

      Contractor Debt Transactions Reviewed                      5
      APO Needs to Record Valid Contractor Identification Data   5
      ARO Needs to Effectively Track Contractor Debt             7
      Recommendations, Management Comments, and Our Response     9

Appendices

      A. Scope and Methodology of Audit                          13
             Prior Coverage of Contractor Debt                   14
      B. Required Supporting Documentation                       15
      C. Debt Management Flowchart                               16
      D. Attribute Testing Results                               18
      E. Sampling Methodology                                    20

Glossary of Technical Terms                                      21

Management Comments

      Defense Finance and Accounting Service                     23
Introduction
Audit Objectives
Our objective was to determine whether the Defense Finance and Accounting
Service (DFAS) had controls in place to ensure the completeness and accuracy of data
in the Contractor Debt System (CDS). Specifically, we determined whether DFAS
properly recorded, offset, and tracked contractor debts and collections. See Appendix A
for the scope and methodology. See the Glossary of Technical Terms for definitions of
specialized terms.

Background for DFAS Operations
DFAS provides financial and accounting services for DoD, including a debt collection
service. DFAS Operations’ mission is to provide responsive and professional
financial management and accounting, analysis, and consultation services, including
accounting, vendor pay, contract pay, and debt management services. A debt to DoD
is a receivable that arises from a claim to cash or other assets against another entity.

As of June 30, 2009, contractors were indebted to DoD for $3.1 billion. 1 DFAS
personnel collected $1.9 billion in debts owed to DoD for FYs 2007 and 2008 and for
FY 2009 (as of June 30). When a contractor or vendor 2 owes a debt to DoD, DFAS
Operations manages recording and collecting the debt through the Accounts Payable
Office (APO) and the Accounts Receivable Office (ARO). APO initiates the recognition
of the debt and then transfers it to ARO. DFAS Operations uses CDS to capture data and
documentation related to each contractor debt owed to DoD.

DFAS Operations Uses the Contractor Debt System
CDS is a database developed in 2002 to help manage delinquent accounts receivable
from issuing the initial demand letters to collecting the debts. CDS assigns a unique Bill
of Collection number to each contractor debt as a debt management tool. CDS allows
users to prepare a demand letter from the database, post any additional debt information
to the demand letter, and issue the demand letter by hard copy or e-mail.

CDS debt records contain the debt balance, including applicable interest computation and
penalties. It maintains the debt status, including debts in litigation, bankruptcy, dispute,
or sent to the Department of the Treasury, to assist in account receivable reporting. CDS
also identifies invoices eligible for offset, provides reports of actions due by status, and
identifies the length of time the debt was in each status.




1
  This information comes from the end-of-month Monthly Debt Management Report for June 2009, as
  provided by DFAS.
2
  CDS includes contractor and vendor debts; therefore, we use these terms interchangeably in the report.

                                                     1
Accounts Payable Office
APO technicians disburse funds to DoD contractors through various payment systems.
Sometimes these payments include improper payments, duplicate payments, and
overpayments made to DoD contractors. DFAS Standards & Compliance standard
operating procedures, “Accounts Payable – Accounts Receivable Handoff” (Handoff
procedure) outlines the debt management process. When APO technicians identify an
erroneous payment using electronic funds transfer, they have 5 business days to recover
those funds. Once the 5 days have lapsed, APO technicians must enter the debt into CDS
within 5 more days (10 business days after the payment date). However, when APO
technicians identify an erroneous payment that was made by issuing a check, they should
immediately enter the debt into CDS. When these steps are completed, APO technicians
transfer the debt in CDS to ARO technicians by e-mail. APO technicians:

       •   validate and identify the erroneous payment by type (duplicate or overpayment)
           and ensure that it has not been collected, offset, or scheduled for an offset within
           the payment system;

       •   evaluate the erroneous payment to determine if it meets Loss of Funds criteria 3
           and notates the Loss of Funds in the CDS notes field; and

       •   enter the required information into CDS and electronically attaches supporting
           documentation. Once attached, APO technicians select the Accounts Receivable
           option and CDS sends an e-mail notification to the Accounts Receivable Office.

Supporting documentation for the erroneous payment entered into CDS should include,
but is not limited to, items required by DoD Regulation 7000.14-R, “DoD Financial
Management Regulation” (DoD FMR), volume 10, chapter 18, “Contractor Debt
Collection.” Supporting documentation should also include items required by the
Handoff procedure. See Appendix B for the detailed list of required items.

The contractor’s Taxpayer Identification Number (TIN) and the Commercial and
Government Entity (CAGE) code are also required in supporting documentation.
DoD FMR, volume 10, chapter 17, “Electronic Submissions and Processing,” states
that all contractors are required to provide a TIN, except for foreign contractors doing
business outside the United States. In addition, it states that contractors are to provide a
CAGE code to receive Prompt Payment interest. A TIN and a CAGE code are necessary
for effectively processing debt transactions; when a valid TIN and CAGE code are
included in the debt file, DFAS is more effective at collecting the debt through an
administrative offset.




3
    A debt meets the Loss of Funds criteria when it is a public debt that is 180 days delinquent or when it
    cannot be collected within 2 years, is from certain source systems, and has one of certain debt reason
    codes.

                                                        2
Accounts Receivable Office
ARO uses CDS to provide debt reporting and debt management to DoD Components.
ARO sometimes uses CDS to reconcile its accounts receivable with its accounting system
when compiling the Treasury Report on Receivables. ARO technicians start the due
process by issuing the initial demand letter to the debtor. They periodically validate and
reconcile the Monthly Debt Management Report to data in the accounting systems as
required by the Handoff procedure. Specifically, ARO technicians:

    •   review the erroneous payment within CDS to determine if it meets the necessary
        criteria of a debt;

    •   verify the debt has not been collected;

    •   establish a receivable in the accounting system based on the information received
        from APO technicians;

    •   prepare and send the initial CDS demand letter to vendors within 5 business days
        after notification of debt from APO technicians;

    •   follow up on the debt transactions every 30 days or until collection or write-off;

    •   maintain a record of all telephone conversations and a copy of all supporting
        documentation, including correspondence, in the respective Debt Management
        hard copy folders and in the comments section in CDS;

    •   update CDS daily with the current status of each erroneous payment until
        collection or write-off;

    •   notify, on the 31st day, the Vendor Pay Office that they have not received a
        repayment to initiate offset for the overpayments;

    •   complete additional activities needed to collect any debt that the Vendor Pay
        Office could not offset or for which ARO technicians had not received a response
        from the vendor within the 30 day period established in the initial demand letter;

   •    transfer to the Debt Management Office delinquent debts that meet the following
        criteria:

            o debt is $600 or more (individually or in aggregate),
            o the contractor has made no effort to repay the debt, and
            o 90 days has elapsed from the initial demand letter.

See Appendix C for a flowchart of the debt management process.




                                             3
Internal Controls for Contractor Debt Management
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. DFAS management had
procedures to validate data and supporting documentation as part of their internal controls
for contractor debt management; however, DFAS management did not have controls over
recording contractor identification information and did not have effective controls for
tracking contractor debts. We will provide a copy of the final report to the senior official
responsible for internal controls in DFAS Operations.




                                             4
Finding. DFAS Needs to Comply With
Contractor Debt Management Requirements
DFAS management did not effectively manage the completeness and accuracy of data in
CDS. Specifically, DFAS management did not have controls for recording contractor
identification information and did not have effective controls for tracking contractor
debts. For 141 sample contractor debt transactions valued at $124.7 million, DFAS
personnel did not have:

    •    TINs and CAGE codes for 46 debt transactions, valued at $15.7 million, and

    •    documentation supporting the appropriation, line of accounting, original principal,
         or delinquent age attributes for 62 debt transactions, 4 valued at $58.3 million.

DFAS personnel did not properly record or track contractor debt because the Handoff
procedures, the CDS User Manual, and system controls did not require a valid TIN and
CAGE code to be recorded in CDS. Technicians also did not have evidence that they
validated contractor debt data collected and entered into CDS. As a result, there is an
increased risk that DFAS Operations will not collect all of DoD contractor debt. For
example, without a correct TIN and CAGE code in CDS, DFAS management continues
to be unable to collect an additional $3.2 million in debt for 19 of 46 debt transactions.

Contractor Debt Transactions Reviewed
DFAS personnel recorded debts in eight Accounting Status categories: (1) At Justice,
(2) Bankruptcy, (3) Dispute, (4) Litigation, (5) Treasury, (6) Forbearance, (7) Other,
and (8) Closed. Categories 1 through 6 were outside the control of the Accounts
Receivable Office (ARO). Debts categorized as “Other” 5 are considered collectible and
remain under ARO control. We based the scope of this audit on “Other” contractor debt
transactions in CDS. “Other” debts totaled $134.9 million in FY 2007, $264.2 million in
FY 2008, and $209.3 million as of June 30, 2009.

APO Needs to Record Valid Contractor Identification
Data
DFAS management did not have controls for recording contractor identification
information. ARO technicians provided supporting documentation for 141 contractor
debt transactions sampled, valued at $124.7 million. However, only 94 of those
contractor debt transactions, valued at $108.2 million, included either a valid TIN or a
valid CAGE code because APO technicians did not properly record contractor


4
  Of these contractor debt transactions, 14 (valued at $9.3 million) are included in the 46 contractor debt
  transactions with invalid TIN and CAGE codes.
5
  To match Department of Treasury reporting elements, CDS includes active contractor debts under the
  category of “Other.”

                                                      5
identification information. Two fields in CDS identify contractors: the TIN and the
CAGE code. APO technicians did not properly enter the TIN or CAGE code in CDS
because the Handoff procedures, CDS User Manual, and system controls did not
specifically require a valid entry for either field.

     DFAS management did not           DFAS management did not have controls over
   have controls over identifying      identifying and entering contractor identification
      and entering contractor          information in CDS to effectively process debt
    identification information in      collection. DoD FMR, volume 10, chapter 17,
     CDS to effectively process        requires organizations to identify a contractor TIN
           debt collection.            in the payment process. In addition, in accordance
                                       with DoD FMR, volume 10, chapter 18, APO
technicians can collect a debt owed to DoD by completing an administrative offset.
When offsetting a debt, APO technicians make a deduction from a current payment due
to that contractor for the amount of the debt owed to DoD. APO technicians cannot
perform an administrative offset without the contractor’s TIN or CAGE code. DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Procedures,” states that:

               [A] Managers’ Internal Control Program be established to review,
               assess, and report on the effectiveness of Internal Controls in the
               Department of Defense. The Managers’ Internal Control Program shall
               identify and promptly correct ineffective Internal Controls, and
               establish Internal Controls.

APO management should have procedures to ensure that TINs and CAGE codes are
properly recorded for all established debts to allow ARO management to efficiently
monitor and report DoD contractor debt. When a valid TIN and CAGE code are present,
ARO technicians can better identify the debtor and collect the debt through offset. For
example, DFAS personnel have effectively collected a portion of seven debts in our
sample valued at $21.1 million, through an administrative offset. The Handoff
procedures did not require a valid TIN or CAGE code to be recorded in CDS. In
addition, the CDS User Manual stated only that APO should make every attempt to
research and fill the TIN field, as it would be critical later in the process.

DFAS management did not ensure CDS system controls required valid entries. For
example, CDS:

   •   did not require the TIN field to be populated, and it defaulted to “000000000;”
   •   did not require a valid CAGE code field to be populated; and
   •   allowed alphabetic character entries, such as “none,” in both fields.

    Without a valid TIN or CAGE code,          Therefore, technicians could ignore the fields
     ARO technicians could not follow          or input invalid entries. TINs and CAGE
   proper procedures that enabled them         codes are necessary in the debt collection
             to process debts.                 process to provide technicians all collection
                                               options.


                                               6
ARO technicians stated that APO technicians did not always provide the TIN or CAGE
code. Without a valid TIN or CAGE code, ARO technicians could not follow proper
procedures that enabled them to process debts. Instead, they performed additional
research to identify valid TIN and CAGE codes. As a best practice, APO technicians
should identify and record a TIN and CAGE code when initially entering the contractor
debt into CDS.

From our sample of 141 debt transactions, 46 debt transactions, valued at $15.7 million,
as of June 30, 2009, did not have a valid TIN and CAGE code. As of February 1, 2010,
of these 46 transactions, 26 transactions 6, valued at $13.2 million, had moved outside of
ARO control, and 19 transactions, valued at $3.2 million, were still categorized as
“Other.” If they had recorded a valid TIN and CAGE code in CDS, APO technicians
may have greatly increased ARO’s ability to collect 19 debt transactions, valued at
$3.2 million.

We analyzed the entire population of the “Other” contractor debt transactions contained
in CDS, as of February 1, 2010, and found that 1,536 out of 7,124 debt transactions,
valued at $34 million and $308.1 million, respectively, did not have valid TINs and
CAGE codes. Invalid TIN and CAGE codes increase the risk that ARO technicians will
not collect the debt owed to the DoD and may not properly offset debts.

To improve technicians’ ability to collect debt, the Director, Standards & Compliance,
DFAS, should:

    •    revise its Handoff procedures to require APO technicians to identify valid TIN
         and CAGE codes and enter them when initially generating the contractor debt
         record in CDS, and

    •    implement controls in CDS to make the TIN and CAGE code data fields required
         fields to ensure that APO technicians do not establish debts without having a valid
         TIN or CAGE code.

For APO technicians to be capable of offsetting debts in CDS, the Deputy Director for
Operations, DFAS, should research and identify a valid TIN or CAGE code for each debt
transaction in CDS currently missing that information.

ARO Needs to Effectively Track Contractor Debt
                                                   ARO management did not have effective
     ARO management did not have                   controls for tracking contractor debts. DoD
      effective controls for tracking              FMR, volume 10, chapter 18, and the Handoff
             contractor debts.                     procedures provide lists of the documentation 7


6
  The contractor debt transactions mentioned here represent 45 transactions, valued at $16.4 million,
  because some debt transaction amounts had been adjusted or combined.
7
  See Appendix B for the lists of documentation needed.

                                                     7
that APO technicians should collect and ARO technicians should use to verify data
entered into a contractor debt transaction in CDS. In addition, according to the “Monthly
Debt Management Report Reconciliation Procedures,” October 28, 2009, ARO
technicians are to validate and reconcile to the accounting systems’ debt records as they
are received. ARO technicians are to perform status reviews every 120 days to ensure
that the accounting systems and CDS remain in balance. However, ARO technicians did
not include evidence in the contractor debt folder that they had validated the data APO
technicians entered into CDS.

We reviewed 141 contractor debt transactions to determine the accuracy of data in four
CDS attributes: Appropriation, Line of Accounting, Original Principal, and Delinquent
Age.

   •   Appropriation Number and Line of Accounting - The Appropriation Number
       contains a 2-digit Treasury Index Symbol, 2-digit Fiscal Year, and 4-digit Basic
       Symbol obtained from an invoice or voucher related to the debt. The Line of
       Accounting contains information used to accumulate appropriation, budget, and
       management information related to the debt.

       The Appropriation Number, in conjunction with the Line of Accounting, indicates
       where the funds originated from (the appropriation or other source) and, where
       the funds should be returned upon collection. If they do not have the correct
       Appropriation Number and Line of Accounting, ARO technicians could return the
       funds to the incorrect source and create a potential misappropriation of funds.

   •   Original Principal - The Original Principal shows the debt amount in CDS. It is
       the original amount of the debt. This amount is important in ensuring that ARO
       technicians collect the proper amount owed to DoD.

   •   Delinquent Age - The Delinquent Age shows whether ARO technicians followed
       the required timeline for due process. It is the age of the debt from the date of the
       initial demand letter to the date the debt is closed. The age of the debt is used
       to determine when certain events are to occur during collection. For instance,
       90 days after the initial demand letter is provided to the debtor, ARO technicians
       should transfer the debt to the Debt Management Office for collection if they have
       not received a response from the debtor. Further, 90 days after the Debt
       Management Office receives the debt, it should turn the debt over to a private
       collection agency or to the Department of the Treasury if it has not received a
       response from the debtor.

We compared the attribute data in CDS to the data in the supporting documentation and
identified 62 unsupported contractor debt transactions valued at $58.3 million. The
62 unsupported contractor debt transactions resulted in 114 unsupported attributes. For
example, one transaction for $2.1 million had incorrect data in all four attributes.
Another transaction for $12.5 million had an unsupported delinquent age attribute. See
Appendix D for detail regarding unsupported contractor debt transactions. The following

                                             8
table summarizes the number of instances that we identified insufficient documentation
to support the data in CDS for the four attributes.

                             Contractor Debt Transaction
                               Attribute Testing Results
                       Attribute                 Not Supported
                       Appropriation Number           27
                       Line of Accounting             37
                       Original Principal             19
                       Delinquent Age                 31
                        Total                        114

According to the CDS User Manual, personnel can link supporting documentation for the
related debt transactions to CDS when personnel save the documentation on a common
network drive. Readily available electronic supporting documentation would allow the
technician to quickly retrieve the specific documents for each contractor debt transaction.

Without sufficient controls in place to verify the debts with complete supporting
documentation, ARO management increased the risk that they will not be able to collect
contractor debt. ARO has a 120-day periodic review process in place. During these
periodic reviews, the Director, Standards & Compliance, should further require ARO
technicians to validate that evidence supporting the debt has been collected and linked to
the debts already recorded in CDS. If the review finds unsupported debts, immediate
action should be taken to fully support the debts in CDS. DFAS personnel should collect
and use the types of documents found in the DoD FMR, volume 10, chapter 18, and the
Handoff procedures (see Appendix B).

Recommendations, Management Comments, and Our
Response
1. We recommend that the Director, Standards & Compliance, Defense Finance
and Accounting Service, improve controls over completeness and accuracy of data
in the Contractor Debt System by:

       a. Revising standard operating procedures, “Accounts Payable - Accounts
Receivable Handoff,” and the CDS User Manual to require the Accounts Payable
Office to record the Taxpayer Identification Number and the Commercial and
Government Entity code in the Contractor Debt System when initially generating
the contractor debt record.

Defense Finance and Accounting Service Comments
The Director, Standards & Compliance, DFAS, agreed and stated that the Handoff
procedures, Contract Debt System Desktop Guide, and Contract Debt System
Manual 8-2010 include the requirement to populate the TIN and CAGE code fields.



                                             9
Our Response
We considered the Director, Standards & Compliance, DFAS, comments nonresponsive.
Although DFAS agreed with the recommendation, DFAS stated that the requirement to
populate the TIN and CAGE code fields was already contained in the guidance. We
disagree; there is no language in the Handoff procedures or other supporting
documentation stating the APO technicians must obtain and enter the TIN and CAGE
code into CDS. For example, the Contract Debt System Desktop Guide states,
“Complete the Contractor Information on the Checklist For New Account Record screen,
as applicable.” It does not specifically state that APO technicians must obtain and enter
the TIN and CAGE code for the contractor. In addition, the Contract Debt System
Desktop Guide shows a CDS screen shot showing the default entries for the TIN
(000000000) and CAGE code (None). We ask that the Director, Standards &
Compliance, DFAS, revise the Handoff procedures, and any other guidance or
instructions, to include stronger language to require the TIN and CAGE code are
completed in CDS.

       b. Implementing controls in the Contractor Debt System that require valid
data entries for the Taxpayer Identification Number and Commercial and
Government Entity code data fields.

Defense Finance and Accounting Service Comments
The Director, Standards & Compliance, DFAS, did not agree with this recommendation.
He stated that the recommendation was redundant and that recommendation 1.a
addressed the “accuracy” of the TIN and CAGE code.

Our Response
We considered the Director, Standards & Compliance, DFAS, comments nonresponsive.
The Director, Standards & Compliance, DFAS, should place restrictions on the TIN and
CAGE code data fields in CDS, so that APO technicians enter the proper number and
type of characters into each field, and so a default value is no longer included in either
field. This would implement a change to the system to provide a two-pronged approach,
ensuring that APO technicians enter the data and enter it correctly. Currently, Contract
Debt System Manual 8-2010, instructs APO technicians to enter the TIN and CAGE code
and, if either is unknown, to leave the default of “None” or enter all zeros (000000000).
We ask that the Director, Standards & Compliance, DFAS, establish restrictions on the
TIN and CAGE code data fields within CDS to ensure accuracy.

       c. Requiring Accounts Payable Office and Accounts Receivable Office
technicians to collect:

             (1) supporting documentation that conforms to the DoD Financial
Management Regulation, volume 10, chapter 18, and Defense Finance and
Accounting Service Standards & Compliance standard operating procedure,
“Accounts Payable - Accounts Receivable Handoff;”



                                           10
Defense Finance and Accounting Service Comments
The Director, Standards & Compliance, DFAS, agreed and stated that the Handoff
procedures and “Monthly Debt Management Report Reconciliation Procedures,”
October 28, 2009, provide specific steps required when there is insufficient
documentation.

Our Response
We considered the Director, Standards & Compliance, DFAS, comments nonresponsive.
Although DFAS agreed with the recommendation, DFAS stated that the requirement for
APO technicians collect the supporting documentation necessary to initiate a contractor
debt transaction was already contained in the guidance. We disagree; currently, the
Handoff procedures include a list of documentation that will be included in the erroneous
payment package. The Handoff procedures do not specify what the APO technicians
need to initiate a debt transaction. We ask that the Director, Standards & Compliance,
DFAS, revise the Handoff procedures to include a specific list of documentation needed
to support the initiation of a contractor debt transaction in CDS.

                (2) evidence of verification made during the current periodic review
to confirm that complete supporting documentation is available and linked in the
Contractor Debt System when debts are established. If the periodic review
identifies that supporting documentation is insufficient and not linked to the debt
record, technicians should take immediate action to fully support the debt recorded
in the Contractor Debt System.

Defense Finance and Accounting Service Comments
The Director, Standards & Compliance, DFAS, agreed and stated that his office
established the Sampling of Transactions Metric to ensure all documents are linked to
CDS as of January 2011. Further, Standards & Compliance–ARO Site Points of Contact
are to verify that documents are linked to CDS and notify the site when and if documents
are missing or fields are not supported.

Our Response
We considered the Director, Standards & Compliance, DFAS, comments responsive.
The Director, Standards & Compliance, DFAS, implemented the Sampling of
Transactions Metric that provides another level of review of the documentation
supporting the contractor debt transactions in CDS. We require no additional comments

2. We recommend that the Deputy Director for Operations, Defense Finance and
Accounting Service, identify valid Taxpayer Identification Number and Commercial
and Government Entity codes for each debt transaction in the Contractor Debt
System currently missing that information.

Defense Finance and Accounting Service Comments
The Director, Standards & Compliance, DFAS, responded for the Deputy Director for
Operations, DFAS. He agreed and stated that all debts are required to be reviewed in

                                           11
CDS every 120 days, adding that, based on the numbers monitoring this requirement,
improvements are required to ensure compliance. Standards & Compliance, DFAS
Accounts Receivable, will organize an initiative for the AROs to populate all missing
TIN and CAGE codes for valid open debts, and those with missing TIN and CAGE codes
determined to be invalid debts will be closed in CDS.

Our Response
We considered the Director, Standards & Compliance, DFAS, comments responsive. It
is our understanding that Standards & Compliance, DFAS personnel, will not close debts
in CDS without first following procedures to collect the debt or write the debts off in
accordance with DoD Financial Management Regulation, volume 4, chapter 3. We
require no additional comments.




                                          12
Appendix A. Scope and Methodology of
Audit
We conducted this performance audit from September 2009 through April 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objectives.

We based the scope of this audit on the “Other” contractor debt transactions from the
Monthly Debt Management Report for the period ending June 30, 2009. DFAS
management uses CDS to produce the Monthly Debt Management Report
for management’s review of debt collection status. The Monthly Debt Management
Report contained a total population of 8,848 “Other” contractor debt transactions valued
at $209.3 million, as of June 30, 2009. We selected a statistical sample of 150 contractor
debt transactions valued at $124.7 million for review. Nine sample transactions valued at
$1,946 were excluded because other DoD reviews were on-going with these contractor
debt transactions. See Appendix E for a complete discussion of our sampling
methodology.

We performed this audit at DFAS centers in Cleveland, Ohio; Columbus, Ohio;
Indianapolis, Indiana; Limestone, Maine; and Rome, New York. For each site, we
reviewed supporting documentation for contractor debt transactions and walked through
procedures for recording debts in CDS.

Use of Computer-Processed Data
To perform this audit, we obtained and analyzed data from the Monthly Debt
Management Report. We reconciled data from the Monthly Debt Management Report to
a data query from CDS that DFAS personnel ran the same day. As a result, we
determined that the data from the Monthly Debt Management Report was a fair
representation of the data contained in CDS and, therefore, was sufficiently reliable for
the purpose of our review.

Use of Technical Assistance
The DoD IG Quantitative Methods and Analysis Division provided technical assistance
throughout the sample selection and analysis process. See Appendix E for a detailed
description of the sampling methodology provided by the Quantitative Methods and
Analysis Division.




                                           13
Prior Coverage of Contractor Debt
During the last 5 years, the Government Accountability Office (GAO) and DoD IG have
issued two reports discussing contractor debt. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-09-442, “Significant Improvements Needed in DoD’s Efforts to
Address Improper Payment and Recovery Auditing Requirements," July 2009

DoD IG
DoD IG Report No. D-2008-046, “Defense Finance and Accounting Service Compliance
with the Debt Collection and Improvement Act of 1996 for the Department of the Navy,”
February 6, 2008




                                          14
Appendix B. Required Supporting
Documentation
The DoD FMR, volume 10, chapter 18, requires supporting documentation (listed below)
to minimally support a debt.

               DoD Financial Management Regulation, volume 10, chapter 18,
                                  “Contractor Debt Collection”
Copies of paid vouchers, which relate to the specific debt.
Amounts and dates of collections that were received or payments that were offset.
For duplicate payments and dual negotiated successor checks, copies of the negotiated checks
obtained from the Department of the Treasury.
All demand letters, other correspondence, and written documentation of telephone or personal
contact with the debtor and others, which are pertinent to the debt.
Any other documents needed to support a recommendation for compromise, discontinuance, or
termination.
The accounting classification or appropriation to which the principal portion of the payments
should be deposited.
Taxpayer Identification Number.
Telephone number, address, and the name of a point of contact who is knowledgeable of the
following entities:
    a. Debtor.
    b. Contracting office making the referral.
    c. Disbursing office making the referral.
    d. Supporting accounting office.
In the case of a determination of debt(s) resulting from an audit or contract reconciliation, a copy
of the audit or reconciliation report with sufficient supporting documentation to explain the
conclusions.
Copies of documentation supporting sales of goods and services to commercial entities on a
reimbursable basis.
The Commercial and Government Entity code.

The DFAS Standards & Compliance Handoff procedures require specific documentation
(listed below) to ensure the proper accounting recognition, due diligence, and debt
management functions are performed and standardized across all the DFAS Sites.

             DFAS Standards & Compliance, standard operating procedures,
                 “Accounts Payable – Accounts Receivable Handoff”
Invoice(s).
Check or Electronic Funds Transfer trace-number to include account number and name of the
bank.
Contract and modification if not in Electronic Data Access (if applicable).
Detailed explanation of how the erroneous payment occurred.
Date of the erroneous payment was discovered and who discovered it.
Any audit results or other supporting documentation pertinent to the erroneous payment.
A printout of the CDS Main Record Screen to include the Bill of Collection number.

                                               15
          Appendix C. Debt Management Flowchart

               Accounts Payable Office                                            Accounts Receivable Office

                                     Erroneous
           Start                      payment                 End             Receive Email
0 Days




                                       found.                                 notification and              Does debt                 No
                                                                                 hard copy                 package meet                         A
                                                                              documentation                debt criteria?
                                                                                from APO.

                                                                Yes
                                                                                                                Yes
                Electronic
                                                                                                                                          End
                                        EFT       Recover
               fund transfer                     Funds/5-10
                 or check?                         days?
                                                                                                                 Has debt                  Yes
                                                                                                                   been
                                                                                                                collected?
                                                 No
                                       Check

                         Additional                                                                             No
           A             research is                                                                                              Establish
                         performed.                                                                                               accounts
                                                                                                                                receivable in
                                                                                                                                 accounting
                                                                Enter debt into            Issue                                   system.
                                                                  CDS and                 Demand
                                                                   forward                 Letter
                                                                documentation              within
                                                                   to ARO.                5 days.



                                                                                             Follow up and              On 31st day,
                                                                                           maintain record of          notify Vendor
30 Days




                                                                                               supporting              Pay Office to
                               Offset another                                               documentation,             initiate offset.
                No                invoice
           B                                                                                    telephone
                                 related to                                                                                                     B
                                                                                           conversations, and
                                  debtor?                                                   correspondence.


                                        Yes


                                  End
                                                                                                    C




                                                                                                        Note: Continues Next Page




                                                                 16
          Accounts Payable Office        Accounts Receivable Office
90 Days




                                                         C




                                                                       No
                                                    Debt is $600
                                                     or more in
                                                     aggregate.


                                              Yes


                                                                       Yes
                                                     Any effort
                                                      to repay
                                                        debt?


                                              No



                                                                       No
                                                       90 days
                                                     from initial
                                                      demand?


                                              Yes



                                                    Transfer to Debt
                                                     Management
                                                        Office.




                                    17
        Appendix D. Attribute Testing Results
                                                          Original                        Original
                                              Line of                 Delinquent
Count   Bill Of Collection   Appropriation                Principal                      Principal
                                             Accounting                  Age
                                                          Amount                   Dollar Amount
   1    09126090125C1                                                     X        $12,463,600.00
   2    08134095526C1                            X           X                       5,885,297.09
   3    09066113102C65                                                    X          5,021,430.56
   4    09153132745C1                            X                                   4,849,748.00
   5    08134100151C1             X              X                                   4,805,382.71
   6    0636580                   X              X                                   3,295,305.00
   7    09066113102C65            X              X           X            X          2,146,336.00
   8    07155133411C1             X              X           X                       1,534,767.84
   9    08115152747C63            X              X           X            X          1,380,215.84
  10    0784C18                   X              X                                   1,156,178.35
  11    0784C18                                  X                                   1,056,058.19
  12    0579500441                X              X           X            X            931,093.51
  13    09167102536C1             X              X                                     804,795.14
  14    09048102835C1             X              X                        X            801,000.00
  15    09078112907C65            X              X           X            X            787,398.62
  16    06828C1                                                           X            686,640.60
  17    09141134528C1             X              X                                     669,722.00
  18    09089102027C1             X              X           X            X            641,178.19
  19    08151130311C17                                                    X            634,543.71
  20    09161085430C65            X              X           X            X            633,472.25
  21    09159131354C65                                                    X            628,550.00
  22    09177144338C63                           X                        X            618,679.92
  23    07120095137C63            X              X           X                         583,210.00
  24    051004LT1                 X                                                    554,931.00
  25    09170073507C65                           X                                     507,063.32
  26    09167115540C1             X              X           X                         480,519.36
  27    08191143241C1                                                     X            446,470.51
  28    07164135156C1                            X                        X            443,507.05
  29    062133C55                                                         X            399,043.00
  30    077543C1                  X              X           X                         356,038.40
  31    04151LT1                                 X                                     289,856.00
  32    078452C63                                                         X            276,088.15
  33    0434795                                                           X            274,586.09
  34    062890C63                                X                                     259,405.56
  35    07214082054C1                                        X                         208,858.00
  36    078877C1                  X              X                                     155,986.50
  37    09166105619C1             X              X                                     154,008.00
  38    0536085                                                           X            142,345.55
  39    09104113709C65                                       X                         132,128.06
  40    9710002861                               X                                     131,205.01

                                               18
                                                          Original                        Original
                                              Line of                 Delinquent
Count   Bill Of Collection   Appropriation                Principal                      Principal
                                             Accounting                  Age
                                                          Amount                   Dollar Amount
 41     08078075802C1             X              X                                     125,561.00
 42     07227154034C63            X              X           X                         117,975.87
 43     09317112253C55            X                                       X            117,698.32
 44     08078075802C1             X              X                                     115,793.00
 45     09110103130C1             X              X           X                         115,792.35
 46     08355132643C27                                       X                         101,429.04
 47     08144142313C63                                                    X             65,313.80
 48     0536084                                                           X             63,459.72
 49     09139105717C27                                                    X             50,000.00
 50     09133100400C1             X              X           X                          48,640.80
 51     09054102120C65                                                    X             22,162.14
 52     09138093220C63            X              X           X                          16,845.95
 53     063637C55                                X                                      16,456.63
 54     09148081023C40                                                    X             14,912.86
 55     07186121140C65                                                    X             13,223.72
 56     07128111410C65            X              X           X            X             13,125.00
 57     09350145426C65                           X                                      11,133.67
 58     08206104124C65                                                    X               2,602.59
 59     09153104525C65                                                    X               2,250.00
 60     09133095813C65                                                    X               1,962.50
 61     09068134602C65                                                    X               1,296.24
 62     09167094826C27                          X                                           483.91
Total                             27            37           19          31        $58,264,762.19




                                               19
Appendix E. Sampling Methodology
Sampling Purpose
We used a stratified sampling plan developed by the DoD IG Quantitative Methods and
Analysis Directorate to determine the number of “Other” contractor debt transactions.
The results of our testing allowed us to determine whether internal controls over
contractor debt management were working.

Sample Design
We applied stratified sampling to debt transactions included in the “Other” category. The
Quantitative Methods and Analysis Directorate designed a stratified sampling design that
stratified the population of the “Other” category into four strata and selected the sample
shown in the table.

                  Population and Sample Breakdown for “Other”
                                  Transactions
                     Stratum         Population Size Sample Size
              ≥ 500K                       40            40
              ≥ 100K to <500K             241            50
              ≥10K to <100K             1,227            40
              <10K                      7,338            20
               Total                    8,846           150

The Quantitative Methods and Analysis Directorate personnel based the plan on a
95-percent confidence interval. The audit team reviewed documentation supporting
the debt transactions:

   •   TIN;
   •   CAGE code;
   •   appropriation;
   •   line of accounting;
   •   original principal; and
   •   delinquent days, using the date of the initial demand letter.




                                            20
Glossary of Technical Terms
Admin [Administrative] Write Off. An accounting action that results in reporting the
debt/receivable as having no value on the agency’s financial and management reports.

Commercial and Government Entity Code. A 5-digit code that identifies contractors
doing business with the Federal Government, which is assigned and maintained by the
Defense Logistics Information Service.

Due Process. A course of formal proceedings carried out regularly and in accordance
with established rules and principles.

Duplicate Payment. A payment that APO makes more than once for the same amount
and with the same supporting documentation for each of more than one payment.

Erroneous Payment. A payment that is improper, including duplicate and over
payments.

Final Settlement. A debt that has been paid in full or paid in full with an agreed upon
compromise.

Improper Payment. All erroneous payments are improper payments. An improper
payment is:

   •   any payment made in an incorrect amount under statutory, contractual,
       administrative, or other legally applicable requirements;

   •   made to an ineligible recipient or for an ineligible service, duplicate payments,
       and payments for services not received; and

   •   when a Component is unable to determine whether a payment was proper because
       of insufficient or lack of documentation, this payment must also be considered an
       error.

Monthly Debt Management Report. A monthly accounts receivable report that the
CDS generates for the field sites to include in their quarterly receivable reports.




                                            21
No Claim. Examples of “No Claim” debts include:

   •   a debt that is created that has an erroneous appropriation, thus resulting in a new
       debt transaction;

   •   a duplicate debt in CDS, resulting in the deletion of the debt transaction; and

   •   a debt that has been cancelled.

Offset. Withholding funds payable by the U.S. Government to an entity to satisfy a debt
that the entity owes the U.S. Government.

Other. To match Department of Treasury reporting elements, CDS includes active
contractor debts under the category of “Other.”

Overpayment. An amount that APO pays to a vendor in excess of what the vendor was
entitled to receive.

Taxpayer Identification Number. A 9-digit number, which is either an Employer
Identification Number assigned by the Internal Revenue Service or a Social Security
number assigned by the Social Security Administration.

Treasury Report on Receivables. A quarterly report of public receivables prepared in
compliance with the Department of the Treasury guidance. It summarizes the status and
condition of the total receivable portfolio from public sources.




                                            22
Defense Finance and Accounting Service Comments





                      DEFENSE FINANCE AND ACCOUNTING SERVICE
                                    ARLINGTON
                                      '88 f SOUTH BEL.L STREET
                                     ARLINGTON , VA 22.240-5 281



                                                                           MAY 092011

       MEMORANDUM FOR DIRECTOR, DEFENSE FINANCIAL AUDITING SERVICE,
                        OFFICE OF THE INSPECTOR GENERAL, DoD

      SUBJECT: DFAS Commenls 10 DoDIG Draft Report, "DFAS Needs More Effective Controls
               over Managing DoD Contractor Debt," dated April 8, 2011, Project No. 02009-
               DOOOFN-0300.000


              Attached are management comments to DoDIG Draft Report, "OFAS Needs More
      Effective Controls over Managing DoD Contractor Debt," dated April 8, 2011, to
      recommendations la, lb, Ie, and 2 .




                                 Click to add JPEG file
                                                  Director, Standards & Compliance


      Attachment:
      As slated




                                             www.dod .mil/dfas
                                       Your Fimmcial Partner @ Work
                              Management Comments
                                        On
      "DFAS Needs More Effective Controls over Managing DoD Contractor Debt"
              Project No. D2009-DOOOFN-0300.000, Dated April 8, 2011


Recommendadon la: Director, Standards & Compliance, Defense Finance and Accounting
Service (DFAS), improve controls over completeness and accuracy of data in the Contractor
Debt System (CDS) by revising standard operating procedures, "Accounts Payable - Accounts
Receivable Handolf," and Ibe CDS User Manual to require Ibe Accounts Payable Office to
record the Taxpayer Identification Number and the Commercial and Government Entity code in
the Contractor Debt System when initially generating the contractor debt record.

Previous Management Comments: NA

Prior Estimated Completion Date: NA

Current Management Comments: Concur, in October 2009, Standards & Compliance-
Accounts Receivable Office released Ibe Accounts Payable (AP)lAccounts Receivable (AR)
HandolfStandard Operating Procedures (SOP) which includes populating Ibe TIN & CAGE
cede fields in Section 3, Page I S. This requirement is also listed in Ibe Contract Debt System
                            Click to add JPEG file
(CDS) Desktop Guide in Section "Creating a New Debt Record", Page 2-7, Step 5 as well as Ibe
Contract Debt System (CDS) Manual, 8-2010 in Section "Creating a New Debt Record", Page
SG-2-9, Steps I and 2.

Estimated Completion Date: Closed.


Recommendation 1b: Director, Standards & Compliance, Defense Finance and Accounting
Service (DFAS), implement centrols in Ibe Contractor Debt System that require valid data
entries for the Taxpayer Identification Number and Commercial and Government Entity code
data fields.

Previous Management Comments: NA

Prior Estimated Completion Date: NA

Current Management Comments: Recommendation is redundant. Item la addresses the
"accuracy" oflbe TIN and CAGE.

Completion Date: Closed.


Recommendation lc: Director, Standards & Compliance, Defense Finance and Accounting
Service (DFAS), requiring Accounts Payable Office and Accounts Receivable Office technicians
to collect: (I) supporting docuroentation Ibat conforms to Ibe DoD Financial Management
Regulation, Volume 10, Chapter 18, and Defense Finance and Accounting Service Standards &
Compliance standard operating procedure, "Accounts Payable - Accounts Receivable Handoffj"
(2) evidence of verification made during the current periodic review to confirm that complete
supporting documentation is available and linked in the Contractor Debt System when debts are
established. If the periodic review identifies that supporting documentation is insufficient and
not linked to the debt record, technicians should take immediate action to fully support the debt
recorded in the Contractor Debt System.

Previous Management Comments: NA

Prior Esdmated Completion Date: NA

Current Management Comments: Concur, procedures are included in both documents
provided to the auditors. For example, the APIAR Handoffprovides specific steps required
when insufficient documentation is uploaded by AP, section 2.4 b. I. In addition, the MDMR
Reconciliation Procedures discusses the necessary steps for insufficient supporting
documentation on page 5. The "Sampling of Tnmsactions" Metric was established to ensure all
documents are loaded into CDS as of January 2011. Standards & Compliance - AR Site POC' s
verify the documents are loaded in COS and notifies the site when and if documents are missing
or fields are not supported.

Completion Date: Closed.    Click to add JPEG file
Recommendation 2: Deputy Director for Operations, Defense Finance and Accounting Service
(DFAS), identify valid Taxpayer Identification Number and Commercial and Government Entity
codes for each debt transaction in the Contractor Debt System currently missing that information.

Previous Management Comments: NA

Prior Estimated Completion Date: NA

Current Management Comments: Concur, all debts are required to be reviewed in CDS every
120 days. Based on the nwnbers monitoring this requirement, improvements are required to
ensure compliance. S&C Accounts Receivable will organize an initiative for the Accounts
Receivable Office(s) to populate all missing TIN and CAGE fields for valid open debts. Debts
with missing TIN and CAGE fields determined to be invalid will be closed in CDS.

Estimated Completion Date: September 2011
26
